September 29, 1999

ROBERT E. MADDERN
MANAGER, METRO OPERATIONS

SUBJECT:	 Northern Virginia District’s Process for Submitting, Controverting, and
          Challenging Injury Claims (Report Number HC-AR-99-001)

We are providing this final report for your information. This report presents the results
of our audit of the Northern Virginia District’s process for submitting, controverting, and
challenging injury claims (Project Number 99RA004HC000). The audit was self-initiated
and included in our fiscal year 1999 Annual Performance Plan.

The audit revealed opportunities for improving timeliness, controversions, challenges,
and management control of injury claims. Management concurred with eight
recommendations and non-concurred with three recommendations. We considered
management comments on a draft of this report in preparing the final report and we
have included those comments in Appendix B.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact
                           or me at



Sylvia L. Owens
Assistant Inspector General
 for Revenue/Cost Containment

Attachment

cc: Yvonne D. Maguire
    Alan B. Kiel
    John R. Gunnels
Northern Virginia District's Process for                                HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims


                                             TABLE OF CONTENTS
Part I

EXECUTIVE SUMMARY                                                             i


Part II

INTRODUCTION
   Background                                                                1

   Objective, Scope, and Methodology                                         1

   Prior Audit Coverage                                                      2


AUDIT RESULTS

    Timely Submission of Injury Compensation Claims                          3

    Recommendations                                                          4
    Management's Comments                                                    5

    Evaluation of Management's Comments                                      5


    Effectiveness of Controverting and Challenging Injury Claims             7

    Recommendations                                                          7
    Management's Comments                                                    8

    Evaluation of Management's Comments                                      8


    Management Controls                                                     9

    Recommendations                                                         9
    Management's Comments                                                  10 

    Evaluation of Management's Comments                                    10 


    Appendices

    Appendix A – Prior Audit Coverage                                      12 

    Appendix B – Management’s Comments                                     14 





                                               Restricted Information
Northern Virginia District's Process for                                                 HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims

                                        EXECUTIVE SUMMARY
Introduction                         The Federal Employees' Compensation Act, Title 5, United
                                     States Code, Chapter 81, provides compensation and
                                     medical benefits to civilian employees of the United States
                                     for disabilities due to personal injury or disease sustained
                                     while in the performance of official duty. In 1974 the Federal
                                     Employees' Compensation Act was amended, increasing
                                     benefits and significantly changing the law by adding
                                     provisions such as continuation of pay and claimant's choice
                                     of physician. The effect of this amendment eventually led to
                                     the establishment, in 1978, of the United States Postal
                                     Service (USPS) Injury Compensation Program. To qualify
                                     for benefits under the Act, the employee must establish that
                                     an injury was related to their employment. In addition, the
                                     employee must submit a claim within the time limits
                                     established by the Act. We completed a self-initiated audit to
                                     determine whether the USPS Northern Virginia District’s
                                     Injury Compensation Control Office could improve its process
                                     for submitting, controverting, and challenging injury claims.

Results in Brief                     Our audit concluded that the Northern Virginia District's Injury
                                     Compensation Control Office could improve its processes for
                                     timely claim submissions, controversions, and challenges of
                                     claims. Specifically, supervisors and injury compensation
                                     specialists did not always timely process injury claims, which
                                     caused delays in the Department of Labor, Office of Workers’
                                     Compensation Programs, processing of USPS employees'
                                     injury claims. Also, USPS injury compensation specialists
                                     did not always properly controvert and challenge injury
                                     claims causing submission of incomplete information for
                                     adjudication to the Department of Labor, Office of Workers’
                                     Compensation Programs. Furthermore, the USPS injury
                                     compensation manager did not establish adequate
                                     management controls over injury claims to ensure that
                                     policies and procedures established by USPS and the
                                     Federal Employees' Compensation Act were followed.

Summary of                           We recommended that the Manager, Metro Operations,
Recommendations                      direct that the District and Plant managers hold supervisors
                                     accountable for submitting injury claims timely. We also
                                     recommended that the Manager, Metro Operations, direct
                                     the Northern Virginia District’s Human Resources Manager to
                                     reemphasize the importance of applying existing procedures
                                     when processing and reviewing injury claims and to develop
                                     additional management controls over injury claims.
                                                        i
                                             Restricted Information
Northern Virginia District's Process for                                               HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims



Summary of                           Management agreed with eight recommendations and
Management's                         disagreed with three recommendations. More specifically,
Comments                             management agreed to develop a management tool and a
                                     separate injury management kit that can be used to ensure
                                     that supervisors submit injury claims in a timely manner. In
                                     addition, management agreed to apply existing procedures
                                     when processing and reviewing injury claims. However,
                                     management did not agree to review and validate timelag
                                     data. Instead, management stated that the timeliness of
                                     injury reporting would be validated and corrected through the
                                     Department of Labor’s Agency Query System. Furthermore,
                                     management did not agree to ensure that claim control
                                     registers are substantially completed for all open and for any
                                     future claim case files. They stated that claim control
                                     registers were included in their procedures as guidance and
                                     not as a requirement. Finally, management did not agree to
                                     provide original claim forms to the Department of Labor,
                                     Office of Workers’ Compensation Programs. We have
                                     summarized management’s responses in the report and
                                     included the full text of the comments in Appendix B.

Overall Evaluation of                Where management concurred or provided an alternative to
Management’s                         our recommendation, management’s planned actions are
Comments                             generally responsive and address the issues identified in this
                                     report. Based on management's comments, we withdrew
                                     one of our recommendations and considered management’s
                                     comments related to another recommendation as
                                     non-responsive.




                                                        ii
                                             Restricted Information
Northern Virginia District's Process for                                                             HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                             INTRODUCTION
Background                        The Department of Labor, Office of Workers' Compensation
                                  Programs (the OWCP), has sole responsibility for administering
                                  the Federal Employees' Compensation Act, to include
                                  adjudication1 of claims and payment for related medical
                                  expenses. The Code of Federal Regulations, Title 20, Part 10,
                                  December 20, 1998, establishes rules applicable to the filing,
                                  processing, and payment of claims for workers' compensation
                                  benefits under the Federal Employees' Compensation Act.
                                  Specifically, Section 10.110(b) of the Code of Federal
                                  Regulations, Title 20, Part 10, December 20, 1998, states in-
                                  part that “the employer must complete and transmit the injury
                                  claim form to the OWCP within 10 working days [14 calendar
                                  days] after receipt of the injury claim form from the employee.”

                                  The USPS Northern Virginia District’s Injury Compensation
                                  Control Office (the Control Office) timely processed
                                  approximately 77 percent of all injury claims submitted during
                                  the scope of our audit. Also, approximately 77 percent of the
                                  injury claims controverted2 or challenged3 were decided in favor
                                  of the USPS.

Objective, Scope, and Our overall objective was to determine the adequacy of the
Methodology           USPS Northern Virginia District's process for submitting,
                      controverting, and challenging injury claims. Specifically, we
                      determined why injury claims were submitted in an untimely
                      manner. We also evaluated whether injury compensation
                      specialists properly controverted and challenged injury claims.
                      In addition, we determined if adequate management controls
                      were established over injury claims to the OWCP.

                                  To conduct the audit, we reviewed OWCP's Time Lag reports4
                                  for Fiscal Year (FY) 1998 through the second quarter of
                                  FY 1999 generated from the USPS Workers’ Compensation
                                  Information and Reporting Systems and judgmentally selected
                                  and reviewed 42 injury claims that were submitted more than
                                  30 calendar days after receipt from injured employees. We
                                  considered injury claims submitted over 30 calendar days to be
1
  The process whereby OWCP considers all information submitted by the employee, employer, and from its own
investigation to reach a decision regarding entitlement to Federal Employees’ Compensation Act benefits.
2
  The process when the USPS disputes the entitlement of continuation of pay for a traumatic injury.
3
  The process whereby the USPS can dispute any aspect of a claim except continuation of pay entitlement or dispute
the entire claim for a traumatic injury, occupational disease or illness, or survivor benefits.
4
  A management report generated from the USPS Workers’ Compensation Information and Reporting Systems, using
data provided by OWCP, to track the timeliness of injury claim submissions.
                                                            1
                                                 Restricted Information
Northern Virginia District's Process for                                             HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims

                                  unreasonable when compared to the 14-calendar day time-
                                  frame required by the Code of Federal Regulations, Title 20,
                                  Part 10. We also judgmentally selected and reviewed 26 injury
                                  claims from the USPS Human Resources Information System
                                  that were controverted or challenged by the Control Office and
                                  adjudicated by the OWCP. Although we used computer-
                                  generated data to support findings and conclusions, we did not
                                  validate application controls. Instead, we assessed the
                                  reliability of this computer-generated data by reviewing source
                                  documents and through discussions with management officials.

                                  We conducted the audit fieldwork from December 1998 through
                                  August 1999 in accordance with generally accepted
                                  government auditing standards and included such tests of
                                  management controls as deemed necessary under the
                                  circumstances. We discussed our conclusions and
                                  observations with appropriate management officials.

Prior Audit Coverage 	 We identified three audit reports issued by the USPS Inspection
                       Service and the Department of Labor Inspector General that
                       address the timeliness of injury claim submissions,
                       controversions, and challenges. We did not identify any audit
                       reports from the General Accounting Office that were related to
                       our audit objectives (see Appendix A for details of prior audits).




                                                        2
                                             Restricted Information
Northern Virginia District's Process for                                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                             AUDIT RESULTS
                                  The USPS Northern Virginia District’s process for submitting,
                                  controverting, and challenging injury claims needs
                                  improvement. Our audit disclosed that the Northern Virginia
                                  District supervisors and injury compensation specialists did not
                                  always process injury claim forms in a timely manner. Also, the
                                  injury compensation specialists did not always properly
                                  controvert and challenge injury claims. Furthermore, the injury
                                  compensation manager did not establish adequate
                                  management controls over injury claims to ensure that policies
                                  and procedures established by USPS and the Act were
                                  followed.

Timely Submission of              The USPS Northern Virginia District supervisors and injury
Injury Compensation               compensation specialists did not always process injury claim
Claims                            forms in a timely manner. Specifically, of the injury claims
                                  reviewed, supervisors did not submit timely 20 of the 42 valid
                                  injury claims to the Control Office after receipt from injured
                                  employees. In addition, the injury compensation specialists did
                                  not adequately use established procedures to prevent 17 of the
                                  42 valid injury claims from being untimely submitted to the
                                  OWCP. We found that the OWCP incorrectly reported the
                                  remaining 5 of the 42 valid injury claims as untimely. The
                                  untimely submission of injury claims by responsible group is
                                  depicted in Chart 1.

                                  These conditions occurred because the Control Office had not
                                  established a mechanism to hold supervisors accountable for
                                  timely submission of injury claims. In addition, injury
                                  compensation specialists did not distinguish between reportable
                                  and non-reportable injury claims that were submitted to the
                                  OWCP, nor did the injury compensation manager periodically
                                  perform reviews to ensure that established processing
                                  procedures were followed. Moreover, the injury compensation
                                  specialists did not validate Time Lag reporting for any injury
                                  claims. Consequently, untimely submission of injury claim
                                  forms did not allow the OWCP an opportunity to act promptly on
                                  compensation benefits. In addition, not performing reviews of
                                  Time Lag reports increases the possibility that timely processed
                                  injury claims could be incorrectly reported as untimely in USPS
                                  performance reports.



                                                        3
                                             Restricted Information
Northern Virginia District's Process for                                                                         HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims

Chart 1 - Late Filed
Injury Claims                                        45
Reviewed                                                                                                        42
                                                     40

                                                     35




                                  Number of Claims
                                                     30
                                                                        Sources of Late Filing
                                                     25
                                                              20                          .
                                                     20
                                                                                17
                                                     15

                                                     10

                                                     5                                           5

                                                     0
                                                          Supervisors   Injury Compensation   The OWCP    Total # of Injury
                                                                              Specialist                 Claims Reviewed


Best Practice
                                  We observed that three Northern Virginia District Safety and
                                  Health Services Offices have placed in operation a Supervisor's
                                  Accident Management Kit. This kit is primarily used to ensure
                                  that supervisors report accidents in a timely manner. We
                                  believe this kit could be used as a model to develop an injury
                                  management kit to satisfy the Control Office’s requirements to
                                  facilitate prompt and accurate investigation, proactive
                                  management, and timely reporting of injuries by supervisors.


Recommendations                   1. We recommend that the Manager, Metro Operations, direct:

                                                     District and Plant Managers to ensure supervisors submit
                                                     injury claims timely when received from injured employees.
                                                     Further, we suggest that a management tool5 be developed
                                                     holding supervisors accountable for not executing their injury
                                                     reporting responsibilities. This management tool should
                                                     include provisions that address supervisors' unsatisfactory
                                                     performance.




5
  During our audit, we found that the Northern Virginia Customer Service District’s Safety and Health Services Office
uses a notification letter to inform managers and supervisors of accident reporting discrepancies. The letter states
that “when managers and supervisors do not comply with established procedures, in order to reiterate accountability,
unsatisfactory performance will be documented and appropriate action should be taken.”
                                                          4
                                               Restricted Information
Northern Virginia District's Process for                                                 HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims



Management’s 	                    Management concurred with the recommendation and stated
Comments 	                        that the responsibility for developing and maintaining this tool
                                  has been communicated to the manager, Injury Compensation
                                  Control Office, and is currently in place.

Evaluation of                     We evaluated management’s comments and determined those 

Management’s                      comments to be responsive. 

Comments 


                                  2. We recommend that the Manager, Metro Operations, direct
                                     the Northern Virginia District’s Human Resources Manager
                                     to:

                                      a) Reemphasize to personnel in the Injury Compensation
                                         Control Office the importance of applying existing
                                         procedures for distinguishing between reportable and
                                         non-reportable injury claims.

                                      b) Require the injury compensation manager to periodically
                                         perform supervisory reviews of injury claims to ensure
                                         that established procedures are followed.

                                      c) Require the injury compensation manager to direct the
                                         injury compensation specialists to review the Time Lag
                                         report on a monthly basis to validate all injury claims that
                                         are reported as late and request corrections with the
                                         Department of Labor, Office of Workers’ Compensation
                                         Programs, where necessary.

                                      d) Consider developing and disseminating an injury
                                         management kit for use by supervisors throughout the
                                         Northern Virginia District.

Management’s                      Management concurred with recommendations 2.a. and 2.b.
Comments                          and will apply existing procedures for distinguishing between
                                  reportable and non-reportable injury claims and to perform
                                  supervisory reviews of injury claims. Management did not
                                  concur with recommendation 2.c. and proposed an alternative
                                  action to resolve the issue associated with this
                                  recommendation. Management concurred with
                                  recommendation 2.d. and has established a target completion
                                  date of the first quarter of FY 2000 to develop and disseminate
                                  an injury management kit.


                                                        5
                                             Restricted Information
Northern Virginia District's Process for                                               HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims

Evaluation of                     We evaluated management’s comments for recommendations
Management’s                      2.a., 2.b., and 2.d. and determined those comments to be
Comments                          responsive. While management non-concurred with
                                  recommendation 2.c., we evaluated management’s alternative
                                  action and determined that it is responsive to the intent of our
                                  recommendation.




                                                        6
                                             Restricted Information
Northern Virginia District's Process for                                                                HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims



Effectiveness of                  The USPS injury compensation specialists did not always
Controverting and                 properly controvert and challenge injury claims reviewed.
Challenging Injury                Specifically, we found that 18 of the 26 controverted and
Claims                            challenged injury claim packages6 either lacked a cover letter
                                  (the most important part of the package) or information in the
                                  cover letter was not clearly stated to support the USPS position.
                                  This condition occurred because the injury compensation
                                  specialists did not follow USPS guidance to prepare and
                                  document controversion and challenge injury claim packages,
                                  nor did the injury compensation manager review controversion
                                  and challenge injury claim packages before submission to the
                                  OWCP for adjudication. As a result, the injury compensation
                                  specialists provided incomplete controversion and challenge
                                  package information to the OWCP for adjudication.
                                  Furthermore, the injury compensation specialists' practice of
                                  submitting incomplete controverted or challenged injury claim
                                  packages could result in an increased possibility that
                                  compensation benefits were erroneously paid.7

Recommendations                   We recommend that the Manager, Metro Operations, direct:

                                  3.	 The Northern Virginia District’s Human Resources Manager
                                      to:

                                       a) Instruct injury compensation specialists to follow existing
                                          guidance for preparing well-documented controversion
                                          and challenge packages to ensure that the Department
                                          of Labor, Office of Workers’ Compensation Programs,
                                          receives accurate and complete information.

                                       b) Instruct the injury compensation manager to periodically
                                          perform and document a supervisory review of
                                          controverted or challenged packages to ensure that
                                          packages are well documented and properly prepared.




6
  Controverted or challenge packages should contain an appropriate reason to controvert or challenge, a cover letter,
supervisor and witness statements, medical evidence, the injury claim, and any other pertinent documentation.
7
  USPS Handbook EL 505, Injury Compensation, Chapter 8, Controversion and Challenge, Section 8.3, states in-part
that the “early and proper identification of controverted or challenged claims is essential to permit the OWCP to give
these claims priority in processing, and to avoid the possibility of substantial or erroneous payments of compensation
benefits.”
                                                             7
                                                 Restricted Information
Northern Virginia District's Process for                                           HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims



Management’s 	                    Management concurred with the recommendations and will
Comments 	                        follow existing guidance for preparing controversion and
                                  challenge packages and periodically perform supervisory
                                  reviews of controverted or challenged packages.

Evaluation of                     We evaluated management’s comments and determined those 

Management’s                      comments to be responsive. 

Comments 





                                                        8
                                             Restricted Information
Northern Virginia District's Process for                                                                   HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims



Management                         The USPS injury compensation manager did not establish
Controls 	                         adequate management controls over injury claims submitted to
                                   the OWCP. Specifically, for the total of 68 injury claims that we
                                   reviewed, we noted that management controls did not exist to:

                                     •	 Prevent outdated claim forms representing valid injury
                                        claims from being sent to the OWCP;
                                     •	 Ensure that original injury claim forms were subsequently
                                        provided to the OWCP;
                                     •	 Prevent “file-only” injury claims from being inappropriately
                                        faxed to the OWCP; and
                                     •	 Ensure that “Claims Control Registers” were used in
                                        managing injury case files.

                                   This occurred because the USPS injury compensation manager
                                   was not aware of the OWCP and USPS management control
                                   requirements. As a result, outdated injury claim forms were
                                   submitted contrary to OWCP policies and procedures.8 Original
                                   injury claim forms were not forwarded to the OWCP thereby
                                   preventing the OWCP from possessing mandatory claims
                                   documentation. File-only injury claims were submitted to the
                                   OWCP that normally could have lead to unneeded Department
                                   of Labor, Occupational Safety and Health Administration,9
                                   scrutiny and/or audits of the USPS. Furthermore, proper use of
                                   claim control registers allows internal staff and external
                                   reviewers the ability to obtain a chronological listing of events
                                   that have occurred on each individual claim.

Recommendations                    We recommend that the Manager, Metro Operations, direct:

                                   4.	 The Northern Virginia District’s Human Resources Manager,
                                       in coordination with the manager of the Injury Compensation
                                       Control Office, to immediately establish management
                                       controls to:

                                       a) Ensure that only current claim forms are provided to
                                          USPS employees and only current claim forms are
                                          submitted to the Department of Labor, Office of Workers'

8
  The Federal Employees Compensation Act Circular 98-02, October 24, 1997, states in-part to “discard all copies of
former versions of injury claim forms as the revisions have legal implications, use of the outdated forms is prohibited.”
9
  The Department of Labor, Occupational Safety and Health Administration (OSHA), has in prior years used the
OWCP’s claims data to determine which federal establishments would be targeted for inspection. However, since
passage of the Postal Employee’s Safety Enhancement Act, the OSHA must treat the USPS as a private sector
employer and has indicated that it will no longer use OWCP claim data for targeting the USPS establishments for
inspection. Instead, OSHA has indicated that it will rely upon Bureau of Labor Statistics survey data to determine
which USPS establishments, if any, will be targeted.
                                                            9
                                                Restricted Information
Northern Virginia District's Process for                                                 HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims

                                             Compensation Programs.

                                      b) Ensure that original claim forms are subsequently
                                         submitted as soon as possible after faxing the claims to
                                         the Department of Labor, Office of Workers'
                                         Compensation Programs.

                                      c) Prevent any future faxing or mailing of “file-only” claim
                                         files to the Department of Labor, Office of Workers'
                                         Compensation Programs.

                                      d)	 Ensure that Claim Control Registers are substantially
                                          completed for all open and for any future claim case files.

Management’s                      Management concurred with recommendations 4.a. and 4.c.
Comments                          and stated that they will institute the use of current claim forms
                                  and will prevent the future faxing or mailing of “file-only” claims
                                  except when warranted. Management did not concur with
                                  recommendation 4.b. and stated that by agreement with the
                                  Department of Labor's, Office of Workers’ Compensation
                                  Programs, District 25, original claim forms are filed in the USPS
                                  Injury Compensation Control Office case files. In addition,
                                  management did not concur with recommendation 4.d. and
                                  cited recent changes in the Federal Employees’ Compensation
                                  Act to support their position.

Evaluation of                     We evaluated management’s comments for recommendations
Management’s                      4.a. and 4.c. and determined those comments to be responsive.
Comments                          Regarding recommendation 4.b., USPS Headquarters, Human
                                  Resources, Safety and Workplace Assistance personnel stated
                                  that since the 12 OWCP Districts individually establish retention
                                  policy for injury claim forms they would support any policy
                                  implemented by the individual OWCP Districts for retention of
                                  injury claim forms.

                                  In a subsequent conversation with the Department of Labor,
                                  Office of Workers' Compensation Programs, Director, District
                                  25, we were advised that District 25 desires the USPS to
                                  forward original injury claim forms to District 25 after faxing
                                  original injury claim forms. The Director, District 25, also stated
                                  that he was not aware of any legal precedent that will allow
                                  faxed documents and signatures to be substituted for original
                                  documents and signatures. The Director, District 25,
                                  addressed potential duplication of injury claims and related
                                  payments by stating that the USPS could batch mail the original
                                  injury claim forms to another designated location other than the
                                                         10
                                               Restricted Information
Northern Virginia District's Process for                                               HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims

                                  OWCP Case Create Section in District 25. Accordingly, we
                                  found that management’s comments relating to
                                  recommendation 4.b. were not supported. Therefore, we
                                  request that the USPS Headquarters, Safety and Workplace
                                  Assistance personnel, Manager, Metro Operations, and the
                                  OWCP Director, District 25, resolve the issue associated with
                                  recommendation 4.b.

                                  In addition, management did not concur with
                                  recommendation 4.d. We considered management’s
                                  comments and further discussed this issue with USPS
                                  Headquarters, Human Resources, Safety and Workplace
                                  Assistance personnel. We were advised that due to changes in
                                  the Code of Federal Regulations, Title 20, Part 10, January 4,
                                  1999, all communication with USPS employees' attending
                                  physician must be in writing. Consequently, documentation on
                                  the Claim Control Register is no longer critical. As a result, we
                                  have withdrawn our recommendation for the establishment of
                                  management controls over claim control registers.




                                                       11
                                             Restricted Information
Northern Virginia District's Process for                                               HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims



                                         Prior Audit Coverage

United States Postal Inspection Service

Case# 044-1233190-                This audit was conducted as a joint audit between the
PA(2), “Joint Audit of            USPS Inspection Service and the Department of Labor
Injury Compensation               Inspector General. The report stated that injured employee
and Safety Programs,”             case management activities did not conform to Federal
August 11, 1998                   Employees’ Compensation Act and USPS mandated
                                  procedures. This condition increased the risk that the
                                  USPS could be penalized by the Department of Labor,
                                  prolong the process of adjudicating claims, produce
                                  additional administrative costs, and hinder employee
                                  productivity. The report recommended that the Midwest
                                  Area Vice President, Operations, issue instructions re-
                                  emphasizing the importance of complying with the
                                  requirements outlined in Federal Employees’ Compensation
                                  Act and the Handbook EL-505 as detailed in the finding.
                                  Management agreed with the finding and recommendation.

Case#044-1224398-                 The report concluded that the seven districts of the New
PA(2), “Office of                 York Metro Area could execute management of the
Workers’                          Workers’ Compensation Program in a more efficient and
Compensation                      cost effective manner. Specifically, the areas where
Program – New York                improvements could be made were in Case Management,
Metro Area,” August               Goal Setting, Training, Monitoring Medical Expenses,
10, 1998                          Staffing, and Home Visitation. Management agreed to all of
                                  the recommendations.

Case#035-1226281-                 The report stated that the USPS did not submit injury claims
AO(1), “Review of                 in a timely manner to the Department of Labor, Office of
Workers’                          Workers’ Compensation Programs. This condition resulted
Compensation                      in interruptions of incomes to over half the injured
Program for U.S.                  employees for the claims reviewed. In addition,
Postal Service                    communications between the Injury Compensation Unit and
Employees,” May 10,               Department of Labor, Office of Workers’ Compensation
1995                              Programs district personnel were not sufficient to ensure the
                                  effective and efficient resolution of controverted or
                                  challenged claims. The report recommended that the injury
                                  compensation manager ensure that the injury compensation




                                                       12                              Appendix A
                                             Restricted Information
Northern Virginia District's Process for                                                HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims

                                  units are verbally advised of all reported on the job injuries
                                  within 24 hours of notice; and the importance of adhering to
                                  the 10 [sic] working days (14 calendar days) requirement for
                                  submission of injury claim forms. The report also
                                  recommended that the injury compensation manager:

                                     •	 Develop and implement an evaluation program to
                                        monitor controversion packages to ensure higher
                                        quality controversion packages are prepared for
                                        adjudication, and
                                     •	 Provide guidance to the injury compensation
                                        specialists regarding controversions that require an
                                        investigation to ensure that sufficient supporting
                                        information is provided to the Department of Labor,
                                        Office of Workers’ Compensation Programs.
                                        Management concurred with the recommendations.




                                                       13	                              Appendix A
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       14             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       15             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       16             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       17             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       18             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       19             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       20             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims




                                                       21             Appendix B
                                             Restricted Information
Northern Virginia District's Process for                              HC-AR-99-001
Submitting, Controverting, and Challenging
Injury Claims


 Major Contributors to
 This Report:




                                                       22
                                             Restricted Information
